98a
APPENDIX E — OPINION OF THE UNITED
STATES DISTRICT COURT, CENTRAL DISTRICT
OF CALIFORNIA, DATED FEBRUARY 22, 2017
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CV11-02389 S JO (SSx)
CIVIL MINUTES - GENERAL UNDER SEAL
KANEKA CORP.
v.
ZHEJIANG MEDICINE CO., LTD. et al.
February 22, 2017
PRESENT: THE HONORABLE S. JAMES OTERO,
UNITED STATES DISTRICT JUDGE
Victor Paul Cruz
Courtroom Clerk

Not Present
Court Reporter

PROCEEDINGS (in chambers): ORDER RE:
WEBSTER, SPORMANN/LIEVENSE, AND
SHERMAN DAUBERT MOTIONS [ECF Nos. 568,
571, 590]
These matters are before the Court on the following
three motions in limine: (1) Plaintiff Kaneka Corporation’s
(“Kaneka”) Motion in Limine No. 1 to Preclude Admission

99a
Appendix E
of Portions of the Expert Report and Testimony of Shirley
Webster (“Webster Motion”), filed December 30,2016; (2)
Kaneka’s Motion in Limine No. 2 to Preclude Admission
of Portions of Reports on Defendants’ Infringement and
Invalidity Experts and Related Testimony (“Spormann/
Lievense Motion”), also filed December 30, 2016; and
(3) Defendants Shenzhou Biology and Technology
Co., Ltd. (“Shenzhou”), Xiamen Kingdomway Group
Company (“XKGC”), Pacific Rainbow International, Inc.
(“PRI”), Sojitz Corporation of America (“Sojitz”), and
Rochem International, Inc.’s (“Rochem”) (collectively,
“Defendants”) Motion in Limine No. 1, Daubert Motion to
Exclude the Testimony of David Sherman, PhD (“Sherman
Motion”), filed January 6, 2017.1 The parties filed their
respective opposition papers on January 16,2017, and filed
their respective reply papers on January 23,2017. For the
following reasons, the Court DENIES the Webster Motion
and GRANTS IN PART and DENIES IN PART both the
Spormann/Lievense and Sherman Motions.

1. Although Defendants filed two Daubert motions on
December 30, 2016, these motions failed to comply with paragraph
26(b)(6)(e) of the Court’s Initial Standing Order, which expressly
limits points and authorities to ten (10) pages. The Court struck these
two motions on January 4,2017, ordered Defendants to file compliant
Daubert motions on or before January 6, 2017. {See January 4, 2017
Minute Order, ECF No. 589.) The Court will issue a separate
order concerning Defendants’ Motion in Limine No. 2 regarding the
opinions and testimony of Kaneka’s damages expert, Sam Rosenfarb.

100a,
Appendix E
I. FACTUAL AND PROCEDURAL BACKGROUND
A. General Background
This is a patent infringement action involving U.S.
Patent No. 7,910,340 (the “’340 Patent”), titled “Processes
for Producing Coenzyme Q10.” Coenzyme QlO (“CoQ10”)
exists in animal cells, which use CoQ10 to produce
adenosine triphosphate (“ATP”), which aids cellular
respiration. CoQ10 assists ATP production through redox
reactions, in which the coenzyme gives up and gains
electrons. Both oxidized and reduced CoQ10 are sold as
dietary supplements.
The ’340 Patent, which is owned by Kaneka, contains
forty-five (45) process claims, of which three—claims
22, 33, and 36—are asserted against Defendants.
Shenzhou and XKGC are Chinese entities that Kaneka
accuses of directly infringing the asserted claims. (See
generally Second Am. Compl. (“SAC”), ECF No. 412.)
The Court refers to Shenzhou and XKGC collectively as
“Manufacturing Defendants.” Defendants PRI, Sojitz, and
Rochem are American distributors of CoQ10 produced by
Shenzhou and XKGC’s manufacturing processes. (See,
e.g., SAC Tf 19.)
B. The Relevant Expert Reports and Testimony
To paraphrase former Magistrate Judge Paul Grewal,
there are three certainties in the world: death, taxes,
and Daubert motions in patent litigations. As is often
the case in patent matters, each side challenges the

101a
Appendix E
methodology and opinions of the other side’s technical
and damages experts. An overview of relevant portions of
the challenged reports and testimony are provided below.
1.

Dr. Shirley Webster, Defendants’ Damages
Expert

Dr. Shirley Webster (“Dr. Webster”) disclosed her
Rebuttal Expert Report on damages issues (“Webster
Report”) on November 30, 2016. (See Decl. Gerald W.
Griffin in Supp. Webster Mot. (“Griffin Webster Decl.”),
Ex. B, ECF No. 570-2.) In her report, Dr. Webster opines
that XKGC, which is alleged to induce infringement
of the asserted claims under 35 U.S.C. Section 271(b),
can only be liable for damages beginning on the date
the Federal Circuit issued its opinion affirming in part,
vacating in part, and remanding Judge Pfaelzer’s decision
granting summary judgment of noninfringement in favor
of defendants because “[a]t least until that date, XKGC
would have reasonable held a good faith belief that it did
not infringe the ’340 patentf.]” (Webster Report 4.) Dr.
Webster opines that the damages period for Shenzhou is
from March 22,2011 (the date Kaneka filed its Complaint)
through the present, and provides an alternative opinion
with respect to XKGC’s potential damages exposure using
this same damages period in the event the jury determines
XKGC was on notice from the date it received a copy of
the complaint in this action. (Webster Report 5.)
Dr. Webster further opines that compensation for any
infringement by XKGC and Shenzhou should be based
on a reasonable royalty, of which the royalty base, which

102a
Appendix E
“should reflect the contribution of the ’340 patent to the
revenues generated from the sale of the accused CoQ10,”
is $743,679. (Webster Report 4.) She further opines
that the patented invention resulted in a “cost savings”
between 2.6 and 19.7 percent for XKGC and between 1.5
and 12.1 percent for Shenzhou, and that the reasonable
royalty rate should be no more than 3 percent for either
of these defendants. (Webster Report 4-5.) Based on
these opinions, Dr. Webster believes that XKGC should
pay no more than $171,843 in reasonable royalty damages
and that Shenzhou should pay no more than $447,898 in
reasonable royalty damages. (Webster Report 4-5.)
In reaching these conclusions, Dr. Webster examined
the purported differences between Kaneka’s “NX
process,” which Kaneka claims is covered by the ’340
Patent, and its older “QX process,” which Kaneka claims
is not covered by the ’340 Patent. (Webster Report
26.) Dr. Webster relied on Kaneka’s “four categories of
advantages of [its] NX process over its QX process” that
are attributable to the invention claimed in the ’340 Patent
in determining what “benefits” might be attributable to
the ’340 Patent. (Webster Report 26-27.)
2.

Drs. Alfred Spormann and Jefferson C.
Lievense, Defendants’ Technical Experts

Dr. Alfred Spormann (“Dr. Spormann”), who was
retained by both Shenzhou and XKGC on the issue of
invalidity and was retained by XKGC on the issue of
noninfringement, disclosed his opening expert report on
invalidity on November 8,2016. {See Decl. Keith D. Nowak

103a
Appendix E
in Supp. Spormann/Lievense Mot. (“Nowak Spormann/
Lievense Deck”), Ex. F (“Spormann Invalidity Report”),
ECF Nos. 573-2, 573-8.) Dr. Spormann and Jefferson C.
Lievense (“Dr. Lievense”), who was retained by Shenzhou
on the issue of noninfringement, disclosed their rebuttal
expert reports on noninfringement on November 30,.
2016. (See Nowak Spormann/Lievense Decl., Exs. A
(“Spormann Noninfringement Report”), B (“Lievense
Noninfringement Report”), ECF Nos. 573-3, 573-4.)
In these reports, Drs. Spormann and Lievense opine
that tests performed by Kaneka intended to determine
whether defendants practice the “70 mole % ratio” are
unreliable because, according to these experts, tests
performed by Shenzhou employees revealed that Kaneka’s
mobile laboratory sampling procedure—under which an
“extraction solvent” is added to test tubes containing
cells and glass beads and five (5) minutes later the test
tubes are shaken—permitted some cells to live up to ten
(10) minutes, artificially increasing the mole % of reduced
CoQ10 by more than 5%. (See, e.g., Spormann Invalidity
Report 723-733; Lievense Noninfringement Report
ffl[ 145-163.) Neither Dr. Spormann nor Dr. Lievense
was present during Shenzhou’s testing. (See Nowak
Spormann/Lievense Deck, Ex. C at 118:14-119:15, Ex. D
at 15:7-10,150:2-21.)
3.

Dr. David Sherman, Ph.D., Kaneka’s
Technical Expert

Dr. David Sherman (“Dr. Sherman”), Kaneka’s
technical expert, disclosed his Expert Report on Patent

104a
Appendix E
Infringement (“Sherman Infringement Report”) on
November 8, 2016 and disclosed his Rebuttal Expert
Report on the Issue of Patent Validity (“Sherman Validity
Report”) on November 30, 2016. {See Decl. Robert M.
Bowick in Opp’n Defs.’ Mot. for Summ. J. (“Bowick
MSJ Opp’n Deck”), Ex. 2 (“Sherman Infringement
Report”), ECF No. 605-5; Decl. Harold H. Davis, Jr. in
Supp. Sherman Mot. (“Davis Sherman Decl”), Ex. N
(“Sherman Invalidity Report”), ECF No. 591-3.) In his
Infringement Report, Dr. Sherman opines that Shenzhou
and XKGC’s manufacturing processes practice the 70
mole % limitation, relying on certain tests conducted by
PharmaForensics and other tests performed by Shenzhou.
{See generally Sherman Infringement Report.) Dr.
Sherman also opines that the 70 mole % limitation is a
novel aspect of the ’340 Patent that confers the ability to
produce a “higher yield” of CoQ10 on an industrial scale.
{See Sherman Validity Report U10.) Finally, Dr. Sherman
offers opinions concerning induced infringement. {See
Sherman Infringement Report ^ 453-526.)
II. LEGAL STANDARDS
A. Motions in Limine
Motions in limine are “important tool[s] available to
the trial judge to ensure the expeditious and evenhanded
management of the trial proceedings.” Jonasson v.
Lutheran Child & Family Servs., 115 F.3d 436, 440 (9th
Cir. 1997). “A party may use a motion in limine to exclude
inadmissible or prejudicial evidence before it is actually
introduced at trial.” Barnett v. Gamboa, No. CV 05-01022

105a
Appendix E
BAM, 2013 WL 174077, at *1 (E.D. Cal. Jan. 16, 2013)
(citing Luce v. United States, 469 U.S. 38, 40 n.2 (1984)).
Regardless of a court’s initial decision on a motion in
limine, however, it may revisit the issue at trial. See Luce,
469 U.S. at 41-42 (“[E]ven if nothing unexpected happens
at trial, the district judge is free, in the exercise of sound
judicial discretion, to alter a previous in limine ruling.”).
“The Supreme Court has recognized that a ruling on a
motion in limine is essentially a preliminary opinion that
falls entirely within the discretion of the district court.”
United States v. Bensimon, 172 F.3d 1121,1127 (9th Cir.
1999) (citing Luce, 469 U.S. at 41-42).
B. Relevance and Unfair Prejudice
Under the Federal Rules of Evidence (“FRE”),2
all relevant evidence is admissible. Fed. R. Evid. 402.
Evidence is relevant if it has “any tendency to make a fact
[that is of consequence in determining the action] more
or less probable than it would be without the evidence.”
Fed. R. Evid. 401. Evidence that cannot meet this
standard is inadmissible. See Fed. R. Evid. 402. Even if
relevant, evidence may be excluded “if its probative value
is substantially outweighed by a danger of... unfair
prejudice, confusing the issues, misleading the jury, undue
delay, wasting time, or needlessly presenting cumulative
evidence.” Fed. R. Evid. 403. “A district court is accorded
a wide discretion in determining the admissibility of
evidence under the Federal Rules.” United States v.
2. Unless otherwise indicated, in text references to particular
Federal Rules ofEvidence are hereinafter abbreviated as “FRE [X],”
where [X] is the number of the referenced rule.

106a
Appendix E
Abel, 469 U.S. 45, 54 (1984). Nevertheless, “[i]n making
a determination under [FRE] 403, the balance in close
cases is struck in favor of admission” of the evidence.
United States v. Crosby, 75 F.3d 1343,1347 (9th Cir. 1996)
(quoting United States v. Payne, 805 F.2d 1062,1066 (D.C.
Cir. 1986)) (internal quotation marks omitted).
C. Expert Testimony
The Federal Rules of Evidence “assign to the trial
judge the task of ensuring that an expert’s testimony
both rests on a reliable foundation, and is relevant to the
task at hand.” Daubert v. Merrell Dow Pharms., 509 U.S.
579, 597(1993). In serving this “gatekeeper” function, a
district court performs a two-part analysis. Domingo v.
T.K., 289 F.3d 600, 605 (9th Cir. 2002). First, a district
court “must determine nothing less than whether the
experts’ testimony reflects scientific knowledge, whether
their findings are derived by the scientific method, and
whether their work product amounts to good science.”
Daubert v. Merrell Dow Pharms. (Daubert II), 43 F.3d
1311,1315 (9th Cir. 1995) (internal quotations and citations
omitted). “Daubert’s general holding—setting forth the
trial judge’s general ‘gatekeeping’ obligation—applies not
only to testimony based on ‘scientific’ knowledge, but also
to testimony based on ‘technical’ and ‘other specialized’
knowledge.” Kumho Tire Co. v. Carmichael, 526 U.S.
137,141 (1999). Second, the court “must ensure that the
proposed expert testimony is ‘relevant to the task at
hand’ i.e., that it logically advances a material aspect of
the proposing party’s case.” Daubert II, 43 F.3d at 1315
(citation omitted).

107a
Appendix E
When considering whether expert testimony is
reliable, a trial court should consider the factors laid out
by the United States Supreme Court in Daubert, 509
U.S. at 593-595, including: (1) “whether the theory or
technique employed by the expert is generally accepted in
the scientific community;” (2) whether “it’s been subjected
to peer review and publication;” (3) “whether it can be and
has been tested;” and (4) “whether the known or potential
rate of error is acceptable.” Daubert II, 43 F.3d at 131617 (citing Daubert, 509 U.S. at 593-595). The Supreme
Court acknowledged in Daubert that the trial judge’s
reliability inquiry is “flexible,” and therefore trial courts
are encouraged to consider other factors not specifically
mentioned by the Supreme Court in Daubert. Daubert,
509 U.S. at 594. To that end, trial courts have also
considered other potentially relevant factors, including (1)
“whether the expert is proposing to testify about matters
growing directly out of independent research he or she
has conducted or whether the opinion was developed
expressly for the purposes of testifying;” (2) whether the
expert has “unjustifiably extrapolated from an accepted
premise to an unfounded conclusion;” (3) “whether the
expert has adequately accounted for obvious alternative
explanations;” (4) “whether the expert is being as careful
as he would be in his regular professional work;” and (5)
“whether the field of expertise claimed by the expert is
known to reach reliable results for the type of opinion
offered.” In re Silicone Gel Breast Implants Litigation,
318 F. Supp. 2d 879, 890 (C.D. Cal. 2004) (citing Fed. R.
Evid. 702 Advisory Committee’s Notes).

108a
Appendix E
III.

DISCUSSION
A. Webster Motion

Kaneka raises two arguments as to why Dr. Webster’s
damages opinions are unreliable. First, it contends Dr.
Webster improperly apportioned Shenzhou and XKGC’s
royalty bases to reflect what she and Defendants’ technical
experts assert as Defendants’ “hypothetical cost savings”
in using processes allegedly covered by the ’340 Patent
over older processes that are not covered. (Mem. of Ps &
As in Supp. Webster Mot. (“Webster Mem.”) 4, ECF No.
570-1.) Second, it submits that even if Dr. Webster could
reliably apportion the royalty base, because she apportions
the alleged “hypothetical cost savings” differently for
Shenzhou and XKGC based on their actual manufacturing
costs while admitting the alleged savings to each
defendant is the same, her testimony should be stricken.
(Webster Mem. 8.) Finally, it argues Dr. Webster should
be precluded from testifying that the damages period
for XKGC began on June 10,2015. (Webster Mem. 9-10.).
1.

Dr. Webster’s Apportionment of the Royalty
Base Does Not Run Afoul of Rule 702

With respect to the issue of apportionment, the Court
agrees with Defendants that Dr. Webster’s methodology
underlying her royalty base calculation is sufficiently
reliable to pass muster under Rule 702. In AstraZeneca
AB v. Apotex Corp., the Court of Appeals for the Federal
Circuit reiterated the longstanding principle that even
when the EMVR does not apply, “[w]hen a patent covers

109a
Appendix E
the infringing product as a whole, and the claims recite
both conventional elements and unconventional elements,
the court must determine how to account for the relative
value of the patentee’s invention in comparison to the
value of the conventional elements recited in the claim,
standing alone.” 782 F.3d 1324, 1338 (Fed. Cir. 2015)
(citing Ericsson, Inc. v. D-LinkSys., Inc., 773 F.3d 1201,
1233 (Fed. Cir. 2014) for the proposition that “the patent
holder should only be compensated for the approximate
incremental benefit derived from his invention”).
The companion litigation that proceeded in the
Southern District of Texas is highly illuminating. In
that action, the court, in denying Kaneka’s motion to
exclude Webster’s substantially similar damages opinions,
found “Kaneka’s arguments regarding the EMVR [to
be] inapposite” because “Dr. Webster’s royalty base
calculation is not premised on an application of the EMVR,
or even on an application of a ‘reverse’ form of the EMVR.”
(Deck Harold H. Davis in Opp’n Webster Mot. (“Davis
Webster Deck”), Ex. A (“Texas Webster Ruling”) at 9,
ECF No. 614-2.) Instead, Webster “correctly apportioned
[defendant’s] total revenue from its accused sales,
according to ‘the contribution of the ’340 Patent to the
coenzyme Q10 production process.” (Texas Webster Ruling
10.) Indeed, the court noted Webster relied on statements
and opinions from Kaneka’s own witnesses, employees,
and experts in reaching her conclusion regarding the
proper royalty base, and concluded that challenges
regarding the weight of her testimony are properly
challenged through cross-examination. (Texas Webster
Ruling 10-11.) Moreover, the court found that “it is clear

110a
Appendix E
that the ’340 Patent is an improvement to older processes
of manufacturing coenzyme Q10” and that Webster’s
“apportionment of the royalty base adequately represents
what [defendant] may have been willing to pay to obtain
a license to the ’340 Patent.” (Texas Webster Ruling 11.)
Although Kaneka argues that the judge in the Southern
District of Texas erred in her application of AstraZeneca
to exclude Dr. Webster, this Court nevertheless finds
Judge Milloy’s reasoning to be persuasive.
Kaneka argues that apportionment is not proper
where the “patented feature creates the ‘basis for
customer demand’ or ‘substantially create[s] the value
of the component parts[,]’” citing to Uniloc USA, Inc. v.
Microsoft Corp., 632 F.3d 1292,1318 (Fed. Cir. 2011). (See
Webster Mem. 4.) This argument is wholly misplaced, as
it is Kaneka’s burden to demonstrate that the EMVR
applies, not Defendants’ burden to demonstrate that it
does not.
To the extent Kaneka argues Dr. Webster’s opinions
are unreliable because the asserted claims cover “an entire
process” rather than a multi-component product such that
“the EMVR, and the related line of cases” do not apply,
such an argument misunderstands that apportionment is a
fundamental concept in patent damages that is not limited
to the EMVR context. This is because a “key inquiry”
in the reasonable royalty analysis “is what it would have
been worth to the [infringer], as it saw things at the time,
to obtain the authority to use the patented technology,
considering the benefits it would expect to receive from
using the technology and the alternatives it might have

111a
Appendix E
pursued.” Carnegie Mellon Univ. v. Marvell Tech. Grp.,
Ltd., 807 F.3d 1283, 1304 (Fed. Cir. 2015). Indeed, Dr.
Webster points to testimony from Kaneka’s own witnesses
and experts indicating Kaneka’s old QX process is not
covered by the patented claims and analyzing the cost
savings Kaneka has realized by switching to the patented
NX process, after taking into account cost savings that
might be attributable to features other than those covered
in the ’340 Patent. (See generally Webster Report 47-55.)
Kaneka cites no authority in support of its argument that
apportionment of the royalty base is inappropriate where
process claims, rather than multi-component product
claims, are concerned.
To the extent Kaneka decries Dr. Webster’s decision to
calculate the “hypothetical cost savings” of Shenzhou and
XKGC based on their actual costs, the Court disagrees
that this decision renders her methodology unreliable.
Dr. Webster first attempts to calculate the cost savings
— in costs per kilogram that Kaneka achieved by switching
to the patented process. (Webster Report 50-52.) After
opining that there was “no indication that the same or
similar benefits are experienced by XKGC or Shenzhou in
their production processes,” Dr. Webster then examined
the “hypothetical cost savings” each defendant may have
achieved if they had used the alleged patented invention.
(Griffin Webster Deck, Ex. C at 132:14-133:7, 135:13136:22.) She then compared these potential cost savings
with each defendant’s cost of sales, determining that the
hypothetical cost savings was 2.6% of XKGC’s production
costs and 1.9% of Shenzhou’s costs. {See Webster Report
53-54.) The Court finds nothing fundamentally unsound

112a
Appendix E
about opining that each defendant’s royalty base should
reflect the incremental benefit it might have realized
through switching from an unpatented process to
the patented process given its unique manufacturing
processes, cost structure, and sales practices. Kaneka
can challenge the conclusions reached by Dr. Webster
in employing her apportionment and hypothetical cost
methodologies through cross-examination.
2.

Whether XKGC Had a Good-Faith Belief
of Noninfringement Prior to the Federal
Circuit Issuing Its Opinion Is a Question
for the Jury

Kaneka next argues that Dr. Webster should be
precluded from testifying as to her opinion that XKGC
is not liable for any infringement prior to the date the
Federal Circuit issued its opinion affirming in part,
vacating in part, and remanding Judge Pfaelzer’s decision
granting summary judgment of noninfringement in favor
of defendants because Dr. Webster “may not use counsel’s
opinions as a sword to limit damages, and then as a shield
to prevent discovery of the facts allegedly supporting her
own opinions.” (Webster Mem. 10.)
In Commil USA, LLC v. Cisco Systems, Inc., 720
F.3d 1361 (Fed. Cir. 2013), vacated on other grounds,
135 S. Ct. 1920 (2015), the Federal Circuit implicitly held
that although an accused infringer’s good-faith belief of
noninfringement could negate the requisite intent for
induced infringement, that determination is reserved for
the fact finder:

113a
Appendix E
We now hold that evidence of an accused
inducer’s good-faith belief of [noninfringement]
may negate the requisite intent for induced
infringement. This is, of course, not to say that
such evidence precludes a finding of induced
infringement. Rather, it is evidence that should
be considered by the fact-finder in determining
whether an accused party knew “that the
induced acts constitute patent infringement.”
Id. at 1368-69. Although Kaneka claims Dr. Webster
improperly “refused to testify about [the opinions of
XKGC’s counsel regarding noninfringement] on the
grounds of attorney client privilege,” the Court declines
to prophylactically limit Dr. Webster’s testimony on this
issue at this juncture. First, Dr. Webster offered an
alternative opinion regarding XKGC’s damages exposure
in the event it is determined that the jury determines
XKGC’s alleged infringement of the ’340 Patent began
on March 22,2011. (See Webster Report 55.) Moreover, in
order to prevail on its good-faith defense, XKGC will need
to present evidence regarding why it believed, in good
faith, that it did not infringe the asserted claims between
the date it received notice of Kaneka’s Complaint and
the date on which the Federal Circuit issued its opinion.
Kaneka will be afforded an opportunity to cross-examine
XKGC and its witnesses if such testimony is offered.
To the extent Kaneka claims XKGC improperly denied
Kaneka discovery into the issue of why XKGC believed it
did not infringe the asserted claims after receiving notice
of its alleged infringement, Kaneka should have raised the
issue with the assigned Magistrate Judge.

114a
Appendix E
3.

Conclusion

For the foregoing reasons, the Court DENIES the
Webster Motion in its entirety.
B. Spormann/Lievense Motion
In the Spormann/Lievense Motion, Kaneka asks the
Court (1) to exclude these experts’ opinions to the extent
they center on Shenzhou’s data and cell viability tests
performed by Shenzhou’s employees; and (2) to exclude
Dr. Spormann’s noninfringement opinions to the extent
they are based on incorrect claim constructions. (See
generally Mem. of Ps & As in Supp. Spormann/Lievense
Mot. (“Spormann/Lievense Mem.”), ECF No. 573-1.)
These two arguments are addressed in turn.
1.

Drs. Spormann and Lievense’s Reliance
on the Shenzhou Tests

The Court disagrees with Kaneka to the extent
it argues that because neither Dr. Spormann nor Dr.
Lievense participated in or observed the employeerun testing at Shenzhou’s facility, they are unable to
demonstrate that the data or cell viability test results
“are based on sound science.” Before turning to the
merits of this argument, the Court notes that these
opinions were offered to challenge the reliability of the
“mobile laboratory” sampling method created and used
by Dr. Sherman and are not solely based on the testing
performed by Shenzhou employees.

115a
Appendix E
Although it is true that Drs. Spormann and Lievense
admit they were not physically present during the “mobile
laboratory” testing conducted by Shenzhou employees,
both testified that they spoke with the employees who
performed the tests about the sampling procedures they
followed. (Nowak Spormann/Lievense Deck, Ex. C at
118:5-120:3, Ex. D at 150:2-25; cf. Spormann/Lievense
Mem. 4 (contending that these experts’ opinions were
“based solely on their review of data and photographs”).)
Federal Rule of Evidence 703 provides that “[a]n expert
may base an opinion on facts or data in the case that the
expert has been made aware of or personally observed.
If experts in the particular field would reasonably rely on
those kinds of facts or data in forming an opinion on the
subject, they need not be admissible for the opinion to be
admitted.” Fed. R. Evid. 703 (emphasis added). Indeed, in
Monsanto Co. v. David, the Federal Circuit permitted an
expert’s “reliance on seed report tests that were produced
by [Plaintiff’s] scientific team but not by [the expert]
personally.” 516 F.3d 1009,1015 (Fed. Cir. 2008).
In any event, Kaneka’s challenges concerning whether
the proper protocol was followed and whether Shenzhou’s
production strain of Rhodobacter sphaeroides, rather
than a different strain, was used go to the weight of these
experts’ opinions rather than the admissibility of such
opinions. Indeed, both sides will have an opportunity
at trial to lay the foundation for and/or challenge the
methods used in the Shenzhou tests. Kaneka’s reliance
on Dr. Sherman’s testimony concerning the “errors”
allegedly made by the Shenzhou employees is therefore
misplaced—Dr. Sherman’s challenges go to the weight

116a
Appendix E
of the opinions offered by Drs. Spormann and Lievense,
rather than the admissibility of their opinions. See, e.g.,
Microjinancial, Inc. v. Premier Holidays Int’l, Inc., 385
F.3d 72, 81 (1st Cir. 2004) (“The objection regarding the
scope of Killion’s investigation of the accounts goes to the
weight, not the admissibility, of his testimony”) (citing
Int’l Adhesive Coating Co. v. Bolton Emerson Int’l, 851
F.2d 540, 545 (1st Cir. 1988) for the following language:
“When the factual underpinning of an expert’s opinion is
weak, it is a matter affecting the weight and credibility
of the testimony—a question to be resolved by the jury”).
The Court therefore DENIES the Spormann/Lievense
Motion on this basis.
2.

Kaneka’s Arguments Regarding Claim
Construction Issues

Kaneka next raises a host of arguments concerning
whether the opinions of Drs. Spormann and Lievense
rely on impermissible claim constructions. It is a bedrock
principle of patent law that testimony that is contrary
to or ignores the court’s claim construction is unhelpful
to the trier of fact and is therefore inadmissible. See,
e.g., MarcTec, LLC v. Johnson & Johnson, 664 F.3d 907,
913 (Fed. Cir. 2012); see also Liquid Dynamics Corp. v.
Vaughan Co., 449 F.3d 1209,1224 & n. 2 (Fed. Cir. 2006)
(holding that the district court did not err in excluding
expert testimony inconsistent with the court’s claim
construction ruling).
Kaneka principally argues that Drs. Spormann and
Lievense should be precluded from offering opinions that

117a
Appendix E
apply different constructions in the noninfringement
and invalidity contexts. (See Spormann/Lievense Mem.
4-5.) Kaneka next contends that these experts should be
precluded from offering opinions that apply constructions
inconsistent with those applied by Judge Pfaelzer and
by the Federal Circuit. (Spormann/Lievense Mem. 6.)
Although “[i]t is axiomatic that claims are construed the
same way for both invalidity and infringement,” the Court
does not find these issues to be as black and white as
Kaneka suggests. Amgen Inc. v. Hoechst Marion Roussel,
Inc., 314 F.3d 1313,1330 (Fed. Cir. 2003) (citation omitted).
At his deposition, Dr. Spormann made clear that his
opinions relied on different constructions of the terms
“oxidation,” “microorganism,” and “sealed tank” in
the noninfringement and invalidity contexts. (Nowak
Spormann/Lievense Deck, Ex. F at 159:19-162:22.)
Defendants contend that to the extent these experts’
opinions applied different constructions in these different
contexts, they only did so because their noninfringement
opinions were offered specifically to rebut Kaneka’s
characterization of the Federal Circuit’s construction of
these terms. (See Mem. of Ps & As in Opp’n Spormann/
Lievense Mot. (“Spormann/Lievense Opp’n”) 9-10, ECF
No. 621-1.) In an effort to ensure that the parties and
there experts do not attempt to argue claim construction
to the jury, the Court clarifies the proper construction of
these three terms. Cf Apple, Inc. v. Samsung Elecs. Co.,
Ltd., No. 12-CV-00630-LHK, 2014 WL 660857, at *3 (N.D.
Cal. Feb. 20, 2014) (“Arguing claim construction to the
jury is inappropriate because it risks confusion and the
likelihood that a jury will render a verdict not supported
by substantial evidence.”).

118a
Appendix E
With respect to the terms “microorganisms” and
“reduced coenzyme Q10-producing microorganisms,”
the Court rules (1) that photosynthetic bacteria and yeast
may fall within the scope of the term “microorgamisms
and rejects Defendants’ prosecution history disclaimer
argument; and (2) that the claims do not require testing
of the bacteria pursuant to the standard assay set forth
between column 4, line 51 and column 5, line 43 of the
’340 Patent. Defendants and their experts are thus
PRECLUDED from offering opinions that seek to import
such limitations into these claim terms.
With respect to the term “sealed tank,” the Federal
Circuit’s construction of the term requires that extraction
be performed “by an organic solvent in a tank that prevents
exposure of the tank’s contents to the atmosphere.”
(Opinion 9, ECF No. 352.) The parties dispute whether
this construction requires that the extraction tank prevent
exposure of the tank’s contents to the atmosphere during
the entire extraction process. According to the Federal
Circuit,
In the industrial scale process of Example 8, a
solution of disrupted (ruptured) cells containing
reduced coenzyme Q10 is “sealed with nitrogen
gas,” i.e., sealed under an inert gas atmosphere
such that solution contents are not exposed to
the atmosphere, and continuously extracted
in a manner that allows solvent to flow into and
out of the extraction tanks depicted in Figure 1.
(Opinion 8.) The only tenable reading of this limitation
is that the tank must prevent exposure of its contents to

119a
Appendix E
the atmosphere for the entire duration of the extraction
step, or else the contents of the tank could be exposed
to the atmosphere for at least a portion of the extraction
step. The Court therefore declines to preclude Drs.
Spormann and Lievense from opining that the extraction
system must be “sealed ... all the time.” In addition, the Court PRECLUDES the parties and their experts from
testifying or opining that extraction can be performed in a
“sealed tank” even if the contents of the tank are exposed
to the atmosphere for a portion of the extraction step.
Finally, the Court addresses the opinions offered by
Drs. Spormann and Lievense that a “baseline” for “passive
oxidation” is required to determine whether a process can
be considered one that “actively oxidizes.” Although the
Court disagrees with Defendants and their experts that
such a baseline is “required” under the Federal Circuit’s
construction of the oxidizing step, it also disagrees with
Kaneka that these experts’ opinions on this issue are
“irrelevant” or are improper attempts to “circumvent”
the Federal Circuit’s construction of this limitation. The
Federal Circuit held that “oxidation requires an active
step.” (Opinion 10.) The Federal Circuit also held, however,
that “because the claims affirmatively recite the step
of ‘oxidizing,’ ‘oxidizing’ cannot be interpreted as doing
nothing, or to simply allow oxidation to occur on its own.”
(Opinion 10.) Thus, whether certain “actions”—including
washing and drying—“simply allow oxidation to occur
on its own” or increase the rate of oxidation beyond this
“passive” level are questions the parties’ experts are
capable of addressing at trial. Kaneka and its experts
may be able to demonstrate that washing and drying

120a
Appendix E
increase the oxidation rate without reference to a “passive
baseline,” and Defendants’ experts can challenge these
conclusions, among other means, by questioning why
Kaneka chose not to compare these methods with “passive
oxidation.”
C. Sherman Motion
Defendants raise a number of arguments with respect
to the opinions offered by Kaneka’s technical expert, Dr.
Sherman. First, they argue that his opinions and testimony
based on Kaneka’s testing of Defendants’ manufacturing
processes should be stricken as unreliable in light of his
failure to follow his own testing protocol. (Mem. of Ps & As
in Supp. Sherman Mot. (“Sherman Mem.”) 1-5, ECF No.
591-1.) Second, they contend that Dr. Sherman’s opinions
and testimony regarding a higher yield of CoQ10 should
be stricken as unsupported. (Sherman Mem. 6-7.) Finally,
they submit that Dr. Sherman should be precluded from
offering opinions regarding or testifying about factual
disputes in the evidentiary record or providing legal
conclusions. (Sherman Mem. 7-9.) These arguments are
addressed below.
1.

Alleged Issues with the PharmaForensics
Protocol and Dr. Sherman’s Deviations from
the Protocol

Defendants begin by raising a litany of issues
concerning the PharmaForensics Protocol and Dr.
Sherman’s undisputed failure to follow certain aspects of
the protocol. These alleged shortcomings include (1) failing

121a
Appendix E
to validate this protocol; (2) failing to place samples on ice
between collection and sampling; (3) failing to disrupt the
cells at the point of collection; (4) “cherry-pick[ing] the
measurements” favorable to Kaneka; (5) failing to show
the protocol solved the 70 mole % problems identified in the
ITC Proceedings; (6) relying on a rationale “contrary to
the scientific literature;” (7) failingto analyze Defendants’
test results; and (8) resulting in impermissibly high
standard deviations. (See generally Sherman Mem. 1-6.)
a.

Dr. Sherman’s Decisions to Use a
Solvent Mixture, Rather than Ice,
to Stop Microbial Cell Metabolism
and to Wait to Disrupt the Microbial
Cells Until Reaching the Mobile
Laboratory

Defendants principally challenge Dr. Sherman’s
decision to add a solvent mixture to the samples containing
microbial cells in order to stop the cells’ metabolic
activity rather than to place the samples on ice, as is
required under the PharmaForensics Protocol. (Sherman
Mem. 2-4.) Defendants also contend that Dr. Sherman
improperly chose not to physically disrupt the microbial
cells at the point of collection by vigorous shaking with
glass beads, even though this measure could have been
taken. (Sherman Mem. 2-4.)
Kaneka does not dispute that Dr. Sherman did not
place the samples on ice, but instead argues that placing
the samples on ice “would have had no effect” given Dr.
Spormann’s earlier testimony that it would take thirty-five

122a
Appendix E
to fifty-five minutes for the temperature of a fermentation
sample to become cold enough to stop the microbial cells
from metabolizing. (Mem. of Ps & As in Opp’n Sherman
Mot. (“Sherman Opp’n”) 6, ECF No. 618-1.)
The Court agrees with Defendants that Kaneka
has failed to meet its burden of demonstrating that Dr.
Sherman’s decisions (1) to add a mixture of n-hexane and
isopropanol to the samples within seconds of collection
rather than to place the samples on ice; and (2) to not
physically disrupt the cells at the point of collection are
the products of “scientifically valid principles.” Daubert,
509 U.S. at 597. The Court begins by noting that the
PharmaForensics Protocol (and Dr. Sherman’s deviation
from the protocol) were created expressly for the purpose
of litigation. (See Davis Sherman Decl., Ex. B at 1.) Where,
as here, “the proffered expert testimony is not based on
independent research, the party proffering it must come
forward with other objective, verifiable evidence that the
testimony is based on ‘scientifically valid principles.’”
Daubert II, 43 F.3d at 1317-18. “Establishing that an
expert’s proffered testimony grows out of pre-litigation
research or that the expert’s research has been subjected
to peer review are the two principal ways the proponent of
expert testimony can show that the evidence satisfies the
first prong of Rule 702.” Id. at 1318. “Where such evidence
is unavailable, the proponent of expert scientific testimony
may attempt to satisfy its burden through the testimony
of its own experts.” Id. at 1318-19. “For such a showing
to be sufficient, the experts must explain precisely how
they went about reaching their conclusions and point to
some objective source—a learned treatise, the policy

123a
Appendix E
statement of a professional association, a published article
in a reputable scientific journal or the like—to show that
they have followed the scientific method, as it is practiced
by (at least) a recognized minority of scientists in their
field.” Id. at 1319. Kaneka has failed to make these expertdriven showings.
Although Shenzhou’s own expert testified that one
known method of quickly stopping a cell’s metabolism
is to “add some sort of solvent or solvent mixture,” {see
Bowick MSJ Opp’n Deck, Ex. 4 at 129:8-18), Kaneka
has not pointed to anything in the scientific literature
demonstrating that the addition of a mixture of n-hexane
and isopropanol in the amounts used by Dr. Sherman to a
broth containing the bacterium Rhodobacter sphaeroides
under an inert gas atmosphere “immediately kills the
microorganisms upon contact” such that refrigeration
would be “unnecessary.” (Cf. Sherman Infringement
Report 122.) Nor has Kaneka pointed to any studies that
it or its experts have conducted showing that the addition
of a mixture of n-hexane and isopropanol in the amounts
used by Dr. Sherman to a broth containing the bacterium
Rhodobacter sphaeroides under an inert gas atmosphere,
without immediate physical disruption, have the effect of
“immediately killing” the microbial cells.
According to Defendants, these evidentiary
shortcomings are particularly problematic in light of
peer-reviewed literature demonstrating that bacteria
may continue to survive after being placed in a mixture
of organic solvents. {See Deck Jefferson C. Lievense in
Supp. Sherman Mot. (“Lievense Sherman Deck”), Exs.

124a
Appendix E
B-D, ECF No. 580.) Kaneka responds by arguing that
these articles are inapposite because they involve bacteria
other than Rhodobacter sphaeroides and also study the
addition of solvents at significantly lower amounts “v/v”
than that used by Dr. Sherman. (See Mem. of Ps & As
in Opp’n Sherman Mot. (“Sherman Opp’n”) 5-6, ECF
No. 618-1; Decl. David H. Sherman in Supp. Sherman
Opp’n (“Sherman Sherman Deck”)
4-11, ECF No.
618-6.) Although the Court acknowledges there might
be differences, perhaps even substantial differences,
between these studies and the methodology employed
by Dr. Sherman, the Court agrees with Defendants that
these studies demonstrate the scientific principle that
“the survivability of some bacteria in solvents has been
studied and shown.” (Mem. of Ps & As in Reply Sherman
Mot. (“Sherman Reply”) 2, ECF No. 626-1.)
The existence of this principle is particularly notable in
light of Dr. Sherman’s decision not to “disrupt” the samples
until reaching the mobile laboratory (approximately five
minutes away from the sample collection site), coupled with
results of testing using the PharmaForensics Protocol
conducted by Shenzhou employees and by third-party
Chemir Analytical Services (“Chemir”). These results
tend to show (1) that bacterial cells survive contact with
the solvent mixture used by Dr. Sherman in test tubes for
as long as 10 minutes, and that delaying physical disruption
of the cells by as little as five minutes causes the mole %
of reduced CoQ10 to increase by more than 5%; and (2)
that if the cells are killed immediately upon collection by
physical disruption, the ratio of reduced CoQ10 among the
entire coenzymes Q10 is below 70 mole % even after a day

125a
Appendix E
of sample collection. (See Lievense Sherman Decl. 3-13,
Ex. K at SHZ0 001512-16, Ex. L at SHZO_002288-95;
Decl. Rachel Rensing in Supp. Sherman Mot. (“Rensing
Sherman Decl.”) 5, Ex. F at SHZO_001553.) Even though
Kaneka challenges the accuracy and results of these tests,3
the point remains that the burden of proving admissibility
under Rule 702 rests with Kaneka, which has failed to
identify any “objective source” demonstrating that the
addition of the solvent mixture in the amounts used by
Dr. Sherman without immediate physical disruption is
sound according to the scientific community. Daubert
II, 43 F.3d at 1319. Indeed, Dr. Sherman testified that
a proper way of determining whether the addition of a
solvent mixture would immediately stop microbial cells
from growing would be “to have controls” such as a “mock
solvent like a buffer.” (Davis Sherman Deck, Ex. E at
44:8-25.) For whatever reason, neither Kaneka nor Dr.
Sherman performed such a controlled experiment. (See,
e.g., Davis Sherman Decl., Ex. E at 23:10-26:2 [claiming
there is no need to conduct a study to determine whether
microbial cells survive the addition of solvent more for any
significant period of time because it is “so fundamental,”
and analogizing that one does not need to “go into outer
space [when] someone tells you there is no oxygen in outer
space [and that] you’re not going to survive that” to test
the hypothesis].)
3. The Court takes seriously Defendants’ argument that
because Kaneka refused to permit them to take Dr. Kittendorfs
deposition on the grounds of privilege, Kaneka should not be
permitted to rely on Dr. Kittendorfs declaration to criticize Chemir’s
testing methodology while preventing discovery into his underlying
opinions.

126a
Appendix E
Dr. Sherman’s opinions and testimony on this point are
problematic for a second reason: he opines that refrigerating
the samples for 5-7 minutes was “unnecessary” in light of
the addition of the solvent mixture, notwithstanding that
the PharmaForensics Protocol, which he helped design,
specifically calls for placing the samples on ice between
sample collection and testing. (Davis Sherman Decl.,
Ex. E at 203:11-22; Ex. B at 3-4; Ex. L at ^ 14 [calling
for placing the samples on ice].) When questioned about
this decision at his deposition, Dr. Sherman testified that
“[t]here was no upside or downside [to placing the samples
on ice] and it was one extra step so we eliminated it at the
end,” even though he was offered ice by XKGC. (Davis
Sherman Decl., Ex. E at 204:4-12.) According to Dr.
Sherman, this decision was made because he “wanted
to move as quickly as possible. We put a lot of time and
money into building this laboratory and developing the
logistics to work in Inner Mongolia, and once we had our
samples, we wanted to move as quickly as possible with
the lab to complete the task.” (Davis Sherman Decl., Ex.
E at 204:13-21 [emphasis added].)
This unsupported explanation defies both logic and
the record. Kaneka failed to prove infringement before
the ITC in large part because of the undisputed impact
that refrigeration and freezing have on the microbial
cells’ ability to metabolize. Indeed, tests performed by
Shenzhou confirmed that when microbial cell samples
collected from a fermentation tank are not placed on ice,
the results are biased toward a higher ratio of CoQ10.
(Davis Sherman Decl., Ex. J at 1143.) This fact, coupled
with Kaneka’s affirmative decision to include a step in the

127a
Appendix E
PharmaForensics Protocol calling for placing the samples
on ice, casts serious doubt on Dr. Sherman’s testimony that
there was “no upside or downside” to cooling the samples.4
Moreover, it does not take a person of skill in the art to
recognize that good science is not conducted by those who
“want[ ] to move as quickly as possible.”
In summation, the central problem with Kaneka’s
position is one squarely addressed in Daubert II: “the
expert’s bald assurance of validity is not enough.” 43 F.3d
at 1316. Kaneka, as “the party presenting the evidence^]
must show that the expert’s findings are based on sound
science, and this will require some objective, independent
validation of the expert’s methodology.” Id. Kaneka has
not even attempted to make this showing, and instead
relies on Dr. Sherman’s ipse dixit based on his “35 years
of experience as a microbiologist[.]” (Sherman Sherman
Decl. Tf 10.) The Court accordingly finds Kaneka’s July 2016
testing of whether Shenzhou and XKGC’s manufacturing
processes practice the 70 mole % limitation using the
PharmaForensics Protocol—including Dr. Sherman’s
4. Kaneka argues that placing the samples on ice “would
have had no effect” given Dr. Spormann’s earlier testimony that it
would take thirty-five to fifty-five minutes for the temperature of a
fermentation sample to become cold enough to stop the microbial cells
from metabolizing. (Sherman Opp’n 6) This argument fails to consider
the distinct possibility that refrigerating or the samples or placing
the samples on ice for five to seven minutes could have a significant
impact on the cells’ ability to metabolize, regardless whether
complete metabolic cessation only occurs on a longer timeframe.
Kaneka bears the burden of coming forth with “objective evidence”
that freezing for five to seven minutes “would have had no effect.”

128a
Appendix E
deviation therefrom—to be unreliable under Rule 702.
The Court PRECLUDES Kaneka and its witnesses
from testifying and offering opinions regarding the
results of their testing of the 70 mole % limitation under
this protocol. This ruling does not, however, bar Kaneka
from introducing evidence or argument at trial regarding
testing of the 70 mole % limitation performed by others,
such as Shenzhou and Chemir, using the PharmaForensics
Protocol, as Defendants have not demonstrated that this
protocol, if followed, is unreliable.
b.

The Data Considered by Dr. Sherman

Defendants next claim that Dr. Sherman “cherrypicked” only favorable measurements that he took, failed
to analyze Shenzhou and XKGC’s results, and reached
conclusions with standard deviations that render his
results “insufficiently precis[e].” (Sherman Mem. 5-6.) The
Court disagrees that these methods render Dr. Sherman’s
methodology unreliable.
The Court begins by rejecting the last of these
arguments, as Defendants offer no support for their
conclusion that because one standard deviation below a
particular mole % reduced CoQ10 average ratio brings
the ratio below the 70% certain threshold, relying on that
average renders an expert’s opinion unreliable. Attacks on
the accuracy of an expert’s conclusions, rather than her
methodology, are not a basis for exclusion under Rule 702.
The Court next considers Defendants’ argument that
because Dr. Sherman “picks and chooses” only favorable

129a
Appendix E
testing data and fails to consider unfavorable data from
Shenzhou and XKGC, his opinions run afoul of Rule 702.
In response to this accusation, Kaneka first argues that
“the only test results required to prove infringement were
the results taken while the microorganisms were still alive
and fermenting” and that “[t]hose results were all over”
70 mole %. (Sherman Opp’n 7.) Kaneka then submits that
“Dr. Sherman did refer to Shenzhou’s own test results in
his expert report because they were at least close to the
amounts found by Kaneka,” but does not cite to the portion
of Dr. Sherman’s report that cites to this data. (Sherman
Opp’n 7.) Finally, Kaneka contends that “Dr. Sherman
was well aware of [XKGC’s] test results but did not refer
to [these] results ... because [XKGC’s] results were
approximately lA the amounts Kaneka and Shenzhou found
during fermentation in Shenzhou’s process” such that “one
skilled in the art could only conclude that [XKGC] did
not correctly follow Kaneka’s protocol.” (Sherman Opp’n
7 & n. 4.)
Although the Court is troubled by Dr. Sherman’s
failure to explain in his Infringement Report why he
considered certain samples but did not consider others
in reaching his conclusions regarding the 70 mole %
limitation, it does not find that preclusion is warranted
pursuant to Rule 702. Defendants point to a sample
taken at 84 hours from XKGC’s fermentation tank that
showed an average ratio of 65.73% with a standard
deviation of 4.13%. {See Davis Sherman Deck, Ex. M at
KAN-CDCAL-23690.) Kaneka responds that “the only
test results required to prove infringement were the
results taken while the microorganisms were still alive

130a
Appendix E
and fermenting” and that “[t]hose results were all over
70 mole% (Sherman Opp’n 7.) Although the particulars
of this argument are difficult to glean from Kaneka’s
opposition papers, the Court understands that this 84hour sample falls outside the “fermentation” step (i.e., “too
late” in the process), while the samples taken at 42 hours
and 72 hours fall within this step. Defendants can question
Dr. Sherman regarding his decision not to address the
84-hour sample through cross-examination and through
their rebuttal experts.
The Court also rejects Defendants’ argument that
Dr. Sherman inexplicably failed to consider data from
Shenzhou and XKGC’s testing of their own manufacturing
processes. First, Dr. Sherman expressly considered
Shenzhou’s findings in paragraph 131 of his Infringement
Report. (See Sherman Infringement Report U 131.)
Second, although it is true that Dr. Sherman decided
not to reference XKGC’s testing of its own plant in his
Infringement Report, Kaneka accuses these results of
being “so low that one skilled in the art could only conclude
that [XKGC] did not correctly follow Kaneka’s protocol.”
(Sherman Opp’n 7 n. 4.) Although it undoubtedly would
have been wise for Dr. Sherman to address this point in
his Infringement Report, rather than in an opposition to a
motion in limine, the Court concludes that this argument
must be tested through vigorous cross-examination. At
the very least, the Court does not find Dr. Sherman’s
selection of test results to be the sort of “cherry-picking”
condemned by courts. Cf. E.E.O.C. v. Freeman, 778 F.3d
463,469-70 (4th Cir. 2015) (collecting cases and finding that
the expert’s “100% failure rate,” which “wildly varie[d]

131a
Appendix E
from the 3.5% failure rate for criminal checks and 9.9%
failure rate for credit checks reflected in the rest of the
data,” which the district court termed “an egregious
example of scientific dishonesty,” warranted exclusion);
In re Bextra & Celebrex Mktg. Sales Practices & Prod.
Liab. Litig., 524 F. Supp. 2d 1166, 1176-77 (N.D. Cal.
2007) (excluding expert’s testimony where he wholesale
rejected “meta-analysis,” notwithstanding that plaintiffs
other experts relied on such studies and even found one
to be a “good study”).
2.

Testimony Regarding “Higher Yield”

Defendants next argue that the Court should strike
Dr. Sherman’s testimony that an industrial- scale process
that includes a process step for “culturing reduced
coenzyme Q10-producing microorganisms to obtain ...
reduced coenzyme Q10 at a ratio of not less than 70 mole
% among the entire coenzymes Q10,” produces a “higher
yield” of oxidized or overall CoQ10 because he lacks any
scientific testing or technical data to support this opinion.
(Sherman Mem. 6.) In particular, Defendants challenge
as lacking in support paragraph 10 of Dr. Sherman’s
Rebuttal Expert Report on the Issue of Patent Validity,
in which he opines that “[a] novel discovery of the ’340
[P]atent is that the productivity of the microorganisms
can be maximized in order to obtain a higher yield [sic]
a better purity than that previously known in the prior
art,” including by culturing microbial cells that meet the
70 mole % limitation. (Sherman Validity Report 10.)

132a
Appendix E
Kaneka responds that two pieces of evidence support
Dr. Sherman’s opinion: (1) column 7, lines 55 through 65 of
the ’340 Patent; and (2) a comparison of Kaneka’s new NX
process and old QX process, and evidence that switching
from QX to NX resulted in a cost savings of 3,410 yen
per kilogram. (See Sherman Opp’n 8-9.) Although these
pieces of evidence support Dr. Sherman’s opinion that the
patented process improves the productivity and yield of
reduced CoQ10, they do not lend support to his opinion that
the 70 mole % limitation improves the yield of oxidized or
overall CoQ10.
Dr. Sherman testified at his deposition that a
microorganism’s ability to produce at least 70 mole %
of CoQ10 “enables the high levels of production of the
metabolite to make industrial level production viable
and achievable.” (Davis Sherman Decl., Ex. E at 82:920.) When questioned as to what support he had for this
proposition, Dr. Sherman cited to the ’340 Patent and
to his knowledge of “microbial physiology” that because
CoQ10 is a critical component in the respiration of cells and
because “the level of reduced CoQ10 reflects the ability of
the cells to generate ATP to support it’s metabolism ...
if the level of CoQ10 is greater than 70 mole %, it’s clear
that the microorganism is growing under conditions that
reflect a high level of reducing power.” (Davis Sherman
Deck, Ex. E at 79:15-80:11.) Besides the ’340 Patent, Dr.
Sherman was unable to point to any piece of literature
supporting the view that the 70 mole % limitation is a novel
feature that leads to higher yield of CoQ10 in any form.
(Davis Sherman Deck, Ex. E at 77:6-84:17.) Moreover, Dr.
Sherman did not perform any experiments to test this
hypothesis. (Davis Sherman Deck, Ex. E at 77:6-84:17.)

133a
Appendix E
Column 7, lines 55 through 65 of the ’340 Patent
provide that “[i]n the processes of the present invention,
high productivity of reduced coenzyme Q10 in the
fermentation production on the industrial scale can be
achieved partially by using the microbial cells containing
reduced coenzyme Q10 at a ratio of not less than 70 mole
% among the entire coenzymes Q,0...(Decl. Keith D.
Nowak in Supp. Sherman Opp’n (“Nowak Sherman Deck”),
Ex. J (“’340 Patent”) col. 7,11.55-65 [emphasis added], ECF
No. 618-12.) The specification of the ’340 Patent further
describes one object of the invention as producing oxidized
CoQ10 by “oxidizing the reduced coenzyme Q10 obtained
from the microbial cells as an intermediate substance in
producing oxidized coenzyme Q10.” (’340 Patent col. 3,11.
39-46 [emphasis added].) Nowhere in the ’340 Patent is
there a discussion of an improved productivity or yield of
overall or oxidized CoQ .
The only other piece of “evidence” Kaneka claims
supports Dr. Sherman’s opinion regarding the connection
between the 70 mole % limitation and “higher yield” of
any form of CoQ10 is a three- page document that was an
exhibit to one of Defendants’ employees’ depositions that
discusses some “[advantages of NX system” vis-a-vis the
QX system. (Sherman Opp’n 9; see also Nowak Sherman
Deck, Ex. L.) Two potentially relevant “advantages” are
“high quality” and “high yield.” (Nowak Sherman Deck,
Ex. L.) Unfortunately for Kaneka, the stated “reason for
the[se] advantages” is that the “[physical process [of the
NX system] can avoid decomposition of Q10 during chemical
disruption.” (Id.) There is no reference to this “advantage”
resulting from the culturing of certain microorganisms
to meet the 70 mole % limitation.

134a
Appendix E
Because Kaneka fails to point to some “objective
source” that the patented process, and in particular the
70 mole % limitation, improves the productivity or yield
of overall or oxidized CoQ10, the Court PRECLUDES Dr.
Sherman from offering opinions or testimony to this effect.
3.

Testimony Regarding Factual Disputes
and Legal Conclusions

Finally, Defendants ask the Court to preclude Dr.
Sherman from offering opinions regarding (1) Shenzhou
and XKGC’s state of mind vis-a-vis the ’340 Patent and
whether they induced infringement of the patent; (2)
factual statements that go beyond his scientific assessment
of the processes at issue and that evaluate the credibility
of Shenzhou’s evidence. (Sherman Mem. 7-10.)
With respect to the state of mind issue, the Court
PRECLUDES Dr. Sherman from testifying about anyone’s
motives, intent, or state of mind, as such “opinions” would
invade the province of the jury. See Oxford Gene Tech.,
Ltd. v. Mergen Ltd., 345 F. Supp. 2d 431, 443 (D. Del.
2004). Not only is such testimony generally improper,
but Dr. Sherman is a self-proclaimed expert in “the fields
of microbial natural products, metabolic engineering,
medicinal chemistry, biochemistry, and drug discovery,”
and is not qualified to provide “expert” opinions on the
issues of Defendants’ mental states or level of knowledge.
(Sherman Infringement Report 11.) A significant
number of the challenged paragraphs in Dr. Sherman’s
Infringement Report directly bear on these issues, and
cannot be presented to the jury. (See, e.g., Sherman

135a
Appendix E
Infringement Report 472 [“The fact that Shenzhou has
not disclosed its testing results is at least an inference that
Shenzhou has actual knowledge that its microorganisms
are cultured to obtain a [sic] least 70 mole % reduced
coenzyme Q10 ”]; 482 [opining that “[a]t a minimum,
Shenzhou must have subjectively believed there was a
high probability that its process infringed upon the ’340
patent, and took deliberate actions to avoid learning of its
infringement”]; 491 [opining that Shenzhou’s customers’
concerns “necessarily infers the specific intent to induce
patent infringement”]; 498 [“Therefore, [XKGC] has been
aware of the ’340 patent since as early as March 22-23,
2011, but no later than April 7, 2011.”]; 503 [“[XKGC]
had actual knowledge that the oxidized ....”]; 512 [“The
fact that [XKGC] has not disclosed its testing results is
at least an inference that [XKGC] has actual knowledge
that its microorganisms are cultured .... At a minimum,
[XKGC] must have subjectively believed there was a
high probability that its process infringed upon the ’340
patent, and took deliberate actions to avoid learning of
its infringement.”].)
Kaneka argues that Dr. Sherman “did no more than”
caselaw allows in that he testifies as to his understanding
of certain facts and then offers his opinion on the ultimate
issue of inducement. (Sherman Opp’n 10.) The central
case relied upon by Kaneka, Gen-Probe Inc. v. Becton
Dickinson & Co., does not support Kaneka’s position. In
that case, the court expressly precluded the plaintiff’s
expert, who was “a patent attorney who has advised
private companies” and has “worked as in-house counsel
responsible for the IP department” at a major company,

136a
Appendix E
from “testifying] about anyone’s motives, intent and state
of mind.” No. 09-CV-2319 BEN NLS, 2012 WL 9335913,
at *4 (S.D. Cal. Nov. 26, 2012). The court did, however,
allow this expert to “testify about [certain opinion] letters’
competency,” including certain “shortcomings” such
as “the letters’ failure to define the person of ordinary
skill in the art.” Id. This case offers no help to Kaneka.
First, Dr. Sherman’s background and area of expertise
distinguishable from the expert at issue in Gen-Probe,
and Kaneka has offered no support for the proposition
that Dr. Sherman can offer opinions about whether a
defendant has induced infringement given his background
in biology. Second, Kaneka glosses over the substantial
number of paragraphs in Dr. Sherman’s Infringement
Report in which he offers opinions about Defendants’ state
of mind, intent, and knowledge. (See Sherman Opp’n 10.)
This tactic, beyond being highly disingenous, runs afoul
of Rule 702.
The Court rejects, however, Defendants’ challenges
regarding opinions that purportedly require no scientific,
specialized, or technical knowledge. The particular
challenges raised do not necessarily fall outside the
purview of Dr. Sherman’s expertise. Indeed, opinions
regarding the sealing and operation of Shenzhou’s
extraction tanks and potential conflicts between
Shenzhou’s legal contentions and witness testimony do
not fall within “the common knowledge of the average
layman.” Mukhtar v. Cal. State Univ. Hayward, 299 F.3d
1053,1065 n.9 (9th Cir. 2002). Defendants can challenges
Dr. Sherman’s opinions through cross-examination and
through the testimony and opinions of their own rebuttal

137a
Appendix E
experts, and the Court DENIES the Sherman Motion on
this basis.
IV. RULING
For the foregoing reasons, the Court:
1.

DENIES Kaneka’s Motion in Limine No. 1 to Preclude
Admission of Portions of the Expert Report and
Testimony of Shirley Webster;

2.

GRANTS IN PART and DENIES IN PART Kaneka’s
Motion in Limine No. 2 to Preclude Admission of
Portions of Reports on Defendants’ Infringement and
Invalidity Experts and Related Testimony; and

3.

GRANTS IN PART and DENIES IN PART
Defendants’ Motion in Limine No. 1, Daubert Motion
to Exclude the Testimony of David Sherman, PhD.

The Court will issue orders regarding the parties’ crossmotions for summary judgment and Defendants’ Motion in
Limine No. 2, Daubert Motion to Exclude the Testimony
of Sam Rosenfarb in short order.
IT IS SO ORDERED.

138a
APPENDIX F — DENIAL OF REHEARING OF
THE UNITED STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT, FILED AUGUST 12,2019
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2018-1892
KANEKA CORPORATION,
Plaintiff-Appellant,
v.
XIAMEN KINGDOMWAY GROUP COMPANY,
PACIFIC RAINBOW INTERNATIONAL INC.,
Defendants-Appellees,
MITSUBISHI GAS CHEMICAL COMPANY,
INC., MAYPRO INDUSTRIES, LLC, ZHEJIANG
MEDICINE CO., LTD., ZMC-USA L.L.C., MAYPRO
INDUSTRIES, INC., SHENZHOU BIOLOGY AND
TECHNOLOGY CO., LTD., SOJITZ CORPORATION
OF AMERICA, ROCHEM INTERNATIONA, INC.,
Defendants.
Appeal from the United States District Court for the
Central District of California in No. 2:ll-cv-02389-S JO­
SS, Senior Judge James S. Otero.

139a
Appendix F
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
Before Prost, Chief Judge, Newman, Lourie, Bryson*,
Dyk, Moore, O’Malley, Reyna, Wallach, Taranto,
Chen, Hughes, and Stoll, Circuit Judges.
Per Curiam
ORDER
Appellant Kaneka Corporation filed a combined
petition for panel rehearing and rehearing en banc.
A response was invited by the court and filed by
Appellees Pacific Rainbow International Inc. and Xiamen
Kingdomway Group Company. The petition was referred
to the panel that heard the appeal, and thereafter the
petition for rehearing en banc was referred to the circuit
judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on August 19,2019.
* Circuit Judge Bryson participated only in the decision on
the petition for panel rehearing.

140a
Appendix F
For the Court
August 12.2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

